      Department of Homeland Security





                Annual Report to Congress on 

            States’ and Urban Areas’ Management 

            of Homeland Security Grant Programs 

                         Fiscal Year 2011




OIG-12-22                                      December 2011

                                                              Office of Inspector General

                                                              u.s. Departmentof Homeland Security
                                                              Washington, DC 20528




                                                              Homeland

                                                              Security

                                         DEe 29 2011

                                             Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report addresses the annual requirement to report to Congress on the results of audits
of individual states' management of State Homeland Security Program and Urban Areas
Security Initiatives grants. It is a summary of the fmdings from seven individual audit
reports, including recommendations to the Federal Emergency Management Agency for
states to take corrective measures and actions to improve their grant management
programs.

We trust this report will result in more effective, efficient, and economical operations.
We express our appreciation to all of those who contributed to the preparation of this
report.

                                        ~~
                                       Anne L. Richards
                                       Assistant Inspector General for Audits
Table of Contents/Abbreviations

Executive Summary ........................................................................................................... 1


Background ........................................................................................................................ 2 


Results of Audits ................................................................................................................ 3 


     States Need To Improve Their Strategic Planning Processes ...................................... 4 


     States Need To Improve Their Oversight of Grant Activities ..................................... 6 


     Innovative Practices ................................................................................................... 15 


Appendices
     Appendix A:           Purpose, Scope, and Methodology ..................................................... 18 

     Appendix B:           Audit Reports Included in this Report ............................................... 19 

     Appendix C:           Scope of State Grant Program Management Audits .......................... 20 

     Appendix D:           Report Distribution ............................................................................ 21 


Abbreviations
     DHS              Department of Homeland Security 

     FEMA             Federal Emergency Management Agency 

     FY               fiscal year       

     OIG              Office of Inspector General 

     SHSP             State Homeland Security Program 

     UASI             Urban Areas Security Initiative 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                  Public Law 110-53, Implementing Recommendations of the 9/11
                  Commission Act of 2007, requires the Department of Homeland
                  Security, Office of Inspector General, to audit individual states’
                  management of State Homeland Security Program and Urban
                  Areas Security Initiative grants, and annually submit to Congress a
                  report summarizing the results of those audits. This report
                  responds to the annual reporting requirement and summarizes
                  audits of seven states completed in fiscal year 2011. The seven
                  states were: Nevada, New Jersey, New York, Pennsylvania,
                  Tennessee, Texas, and California (Urban Areas Security Initiative
                  only).

                  The objectives of the state audits were to determine whether each
                  state distributed and spent the grant funds (1) effectively and
                  efficiently and (2) in compliance with applicable federal laws and
                  regulations. We were also to address the extent to which grant
                  funds enhanced the states’ ability to prevent, prepare for, protect
                  against, and respond to natural disasters, acts of terrorism, and
                  other man-made disasters. The audits included a review of
                  approximately $1.7 billion in State Homeland Security Program
                  and Urban Areas Security Initiative grants awarded to the seven
                  states during fiscal years 2006 through 2009.

                  Generally, the states did an efficient and effective job of
                  administering the grant requirements, distributing grant funds, and
                  ensuring that all of the available funds were used. Most states used
                  reasonable methodologies to assess threats, vulnerabilities,
                  capabilities, and needs, and allocated funds accordingly. We
                  identified five innovative systems that could be considered for use
                  by other jurisdictions.

                  We identified two major areas for improvement: strategic
                  planning and oversight of grant activities. We also identified
                  almost $7.5 million in questioned costs. We made 70
                  recommendations addressing these areas. In its corrective action
                  plans, the Federal Emergency Management Agency concurred with
                  64 of the recommendations, and concurred with the intent of the
                  remaining 6 recommendations.

                 Annual Report to Congress on States’ and Urban Areas’ 

            Management of Homeland Security Grant Programs Fiscal Year 2011


                                        Page 1
Background
               Public Law 110-53, Implementing Recommendations of the 9/11
               Commission Act of 2007, requires the Department of Homeland
               Security (DHS), Office of the Inspector General (OIG), to annually
               submit to Congress a report summarizing completed audits of State
               Homeland Security Program (SHSP) grants and Urban Areas
               Security Initiative (UASI) grants awarded to states, territories, and
               the District of Columbia. This report summarizes our fiscal year
               (FY) 2011 audits of the management of Homeland Security Grant
               Program funds awarded to seven states, as indicated in table 1.
               Appendix B provides Internet links to the reports. Table 2
               summarizes the status of audits recommendations for FY 2011.

               Table 1: Audits Included in This Report
                                            Homeland   Audited                  Audited
                                 Fiscal      Security   SHSP                     UASI
                   State         Years        Grant     Grant                    Grant
                               Reviewed      Awards    Awards                   Awards
                                              (000s)    (000s)                   (000s)
                California        2006–2008         $735,000                0   $420,790
                Nevada            2006–2008          $58,791       $23,110       $26,090
                New Jersey        2007–2009         $186,724       $67,427      $106,356
                New York          2006–2008         $624,803      $142,770      $422,039
                Pennsylvania      2007–2009         $171,639       $79,129       $74,857
                Tennessee         2006–2008          $54,495       $25,910       $15,026
                Texas             2006–2008         $353,780      $125,980       165,357
                Subtotal                                          $464,326 $1,230,515
                Total                            $2,185,232            $1,694,841

               The objectives of the individual state audits were to determine
               whether the states distributed and spent the grant funds
               (1) effectively and efficiently and (2) in compliance with
               applicable federal laws and regulations. We were also to address
               the extent to which grant funds enhanced the states’ ability to
               prevent, prepare for, protect against, and respond to natural
               disasters, acts of terrorism, and other man-made disasters.
               Appendices A and C provide additional details on the purpose,
               scope, and methodology of this report and the state audits.




              Annual Report to Congress on States’ and Urban Areas’ 

         Management of Homeland Security Grant Programs Fiscal Year 2011


                                     Page 2
Results of Audits 

     Generally, our audits showed that the states did an efficient and effective job of
     managing grant programs requirements, distributing grant funds, and ensuring that
     all of the available funds were used. Most states used reasonable methodologies to
     assess threats, vulnerabilities, capabilities, and needs. The states generally spent
     the grant funds in accordance with grant requirements and state-established
     priorities, and appropriately allocated funding based on threats, vulnerabilities,
     capabilities, and priorities. We identified five innovative systems that could be
     considered for use by other jurisdictions.

     However, the audit reports identified two major areas for improvements: strategic
     planning and oversight of grant activities. We made 70 recommendations to the
     Federal Emergency Management Agency (FEMA) that, when implemented,
     should strengthen program management, performance, and oversight. In its
     corrective action plans, FEMA concurred with 64 of the recommendations and
     concurred with the intent of the remaining 6 recommendations. The
     recommendations will remain open pending completion of corrective actions by
     FEMA.

     Table 2: Status of Audit Recommendations
                                                                  FEMA
                                                                                Status:
                 Areas for Improvement                Issued    Concurrence
                                                                              Open Closed
                                                                Yes     No
      I. States Need To Improve Their Strategic Planning Processes
      Fully measurable and achievable goals and
                                                           12    12      0      11     1
      objectives
      Long-term capability sustainment options             7      7      0       7     0
      Prioritize strategic goals and proposed
                                                            5     5      0       4     1
      projects
      Statewide strategy for special response teams         3     3      0       3     0
      Subtotal                                             27    27      0      25     2
      II. States Need To Improve Their Oversight of Grant Activities
      Allocation and obligation of grant funds              5     5      0       5     0
      Monitoring of subgrantees activities                 13    13      0      10     3
      Oversight of investments, costs, and
                                                            3     3      0       3     0
      financial management
      Compliance with procurement and property
                                                           22    22      0      20     2
      management requirements
      Subtotal                                             43    43      0      38     5
      Total                                                70    70      0      63     7




                      Annual Report to Congress on States’ and Urban Areas’ 

                 Management of Homeland Security Grant Programs Fiscal Year 2011


                                                 Page 3

States Need To Improve Their Strategic Planning Processes
     Our audits identified system weaknesses in the states’ strategic planning
     processes. The states’ strategies lacked fully measureable goals and
     objectives, sustainment options, priorities, and a statewide strategy for
     special response teams.

             State Homeland Security Strategies Lacked Fully Measurable
             and Achievable Goals and Objectives

             The Homeland Security Strategies for California, Nevada, New
             Jersey, New York, Pennsylvania, and Texas lacked specific,
             measurable, achievable, results-oriented, and time-limited goals
             and objectives applicable to first responder capabilities. Nevada,
             New Jersey, New York, Pennsylvania, and Texas did not develop
             adequately defined goals and objectives to use for measuring
             improvements in their preparedness and response capabilities.
             California did not have a system in place to measure the benefits
             produced by grant-funded programs. Without measurable goals
             and objectives and a mechanism to collect objective, results-
             oriented data from local jurisdictions and first responders, the
             states did not have a basis to evaluate the effect of grant
             expenditures on preparedness and response capabilities. Also, the
             states were unable to determine progress toward goals and
             objectives when making funding and management decisions.

             Long-term Capability Sustainment Options

             California, New York, and Nevada did not prepare contingency
             plans to address potential funding shortfalls if DHS funding were
             significantly reduced or eliminated. Funding shortfalls could put at
             risk critical programs intended to respond to terrorist acts and
             various catastrophes.

             In California, Fusion Centers and Regional Communication
             Systems are two examples of critical programs at risk during
             potential DHS funding shortfalls. The Fusion Centers are designed
             to bring together information sharing capabilities from personnel
             and systems that are critical for identifying and preventing terrorist
             acts as well as for law enforcement purposes, such as identifying
             and prosecuting organized drug, gang, and cross-border crimes.
             One Fusion Center received $17.4 million from the Urban Areas
             Security Initiative’s FYs 2006 through 2008 grants. California
             UASI Fusion Center Directors said that the centers would be
             closed if federal funds were not available because neither the State

            Annual Report to Congress on States’ and Urban Areas’ 

       Management of Homeland Security Grant Programs Fiscal Year 2011


                                   Page 4
      nor local communities could allocate the resources needed to
      operate the centers.

      Similarly, three large regional communications systems in
      California would be at risk because the urban areas did not have an
      assured source of funds to complete and operate the systems.
      California has invested nearly $350 million of grant funds in public
      safety communications systems, two of which were expected to
      cost more than $1 billion, without a firm plan for obtaining funding
      from local sources should grant funds be reduced or eliminated.

      New York State may not be able to sustain long-term activities
      funded by the Homeland Security Grant Program without
      continued federal funding. Multiple-year projects were approved
      that extended beyond the grant period without identified state and
      local funds for completing the projects. As a result, long-term
      sustainability of capabilities and the completion of projects funded
      by multi-year contracts may be in jeopardy if the funding for the
      Homeland Security Grant Program is discontinued or severely
      reduced. Likewise, Nevada had not prepared contingency plans to
      address funding shortfalls if grant funds are reduced or curtailed in
      subsequent years. Although Nevada subgrantees indicated that
      they would accept financial responsibility for post-grant funding,
      they offered little substantive support as to how they would address
      long-term costs, from either an equipment or salary perspective.

      Prioritize Strategic Goals and Proposed Projects

      Pennsylvania did not prioritize proposed projects submitted by
      counties and regions as part of their strategic planning process.
      Instead, it relied on input and decisions made by nine regional task
      forces without first analyzing the impact of those proposals from a
      Commonwealth-wide perspective. A Commonwealth-wide
      perspective is necessary to systematically determine the most
      critical needs; allocate limited grant resources; and manage county,
      regional, and Commonwealth project implementation. As a result,
      the Commonwealth cannot ensure that it is addressing its most
      critical needs to prevent, deter, respond to, and recover from
      terrorist attacks, major disasters, and other emergencies.

      Statewide Strategy for Special Response Teams

      Texas had not established a statewide strategy concerning the
      optimum numbers, types, and locations of special response teams.
      Also, it had not established requirements or provided guidance and

     Annual Report to Congress on States’ and Urban Areas’ 

Management of Homeland Security Grant Programs Fiscal Year 2011


                            Page 5
             direction to existing or potential special response teams concerning
             standardization of equipment, training, exercises, and capability
             revalidation. As a result, the special response teams did not benefit
             from an overall statewide strategy to ensure that the teams were
             properly equipped, trained, exercised, validated, and interoperable.

States Need To Improve Their Oversight of Grant Activities
     Our audits found weaknesses in four areas of the states’ oversight of grant
     activities. The states were not effective in their allocation and obligation
     of funds to subgrantees. They did not monitor subgrantee performance to
     ensure that the subgrantees were adequately performing their
     responsibilities to enhance terrorism prevention, response, recovery, and
     mitigation capabilities. Furthermore, their oversight of some of the grant
     recipients did not result in effective and efficient stewardship of federal
     grant funds, including expenditures, costs, and financial management.
     Weaknesses were also identified in complying with grant requirements
     through property and procurement management controls.

             Allocation and Obligation of Grant Funds

             California, New Jersey, New York, Pennsylvania, and Texas did
             not allocate or obligate grant funds to subgrantees in a timely
             manner. Also, the Texas Councils of Government funding
             allocations to local jurisdictions were not always made using a
             risk-based methodology. As a result, the opportunity for first
             responders to be better equipped, trained, and prepared was
             delayed, and other priority homeland security initiatives were not
             initiated or completed as timely as possible.

             A California urban area did not make grant funds available to
             subrecipients for 15 to 18 months after the funds were received.
             As a result, expenditures for approved programs were delayed, the
             FYs 2006 and 2007 UASI grant performance periods were
             extended, and administrative costs increased. Most important,
             these delays prevented timely delivery of needed plans, equipment,
             exercises, and training to first responders.

             New York State obligated grant funds to subgrantees in accordance
             with federal requirements, but the funds were not available for
             expenditure for months after the date of obligation because the
             subgrantees needed to sign contracts with the State before seeking
             reimbursement. The time available for subgrantees to make
             expenditures and be reimbursed by the State was significantly
             reduced and overall expenditure of grant funds was delayed. As a

            Annual Report to Congress on States’ and Urban Areas’ 

       Management of Homeland Security Grant Programs Fiscal Year 2011


                                   Page 6
      result, the opportunity for first responders to be better equipped,
      trained, and prepared was delayed because it took 8 to 12 months
      for subgrantees to receive signed contracts from the State.

      New Jersey did not make funds available to all UASI subgrantees
      in accordance with federal pass-through requirements. This
      occurred because of delays by both the UASI Executive
      Committee and the state Office of Homeland Security and
      Preparedness in approving spending plans. New Jersey
      subgrantees did not always initiate projects in a timely manner, and
      as a result, SHSP and UASI grant funds were not expended within
      the grant performance period. Consequently, first responders were
      less likely to be as equipped, trained, and prepared as possible.

      Pennsylvania’s process for obligating grant funds to subrecipients
      was time consuming and exceeded the required grant obligation
      timeline. As a result, the task forces were delayed in acquiring
      equipment, training, and exercises to be prepared to address all
      hazardous events, and had limited time to expend obligated funds
      within the original period of performance for the grants.

      In Texas, Councils of Government did not always use a risk-based
      methodology for funding allocations to their local jurisdictions.
      Although not required by FEMA, risk management is a way to
      direct finite resources to areas most at risk of terrorist attack under
      conditions of uncertainty. Given limited resources, risk
      management is a structured means of making informed tradeoffs
      and choices about how to use available resources, and of
      monitoring the effects of those choices. Texas had not developed a
      risk-based methodology for the Councils of Government and did
      not examine the methodology they used to allocate funds to their
      local jurisdictions. Consequently, the Councils were allowed
      flexibility in prioritizing and allocating funds to local jurisdictions,
      as shown in the following examples:

      •	 For FY 2006 funding and prior years, one Council of
         Government’s First Responder Preparedness Committee used a
         percentage to allocate funding. The region’s major city, with a
         population of about 700,000, received 60% of the funding,
         while remaining jurisdictions divided the remaining 40% of the
         funds equally.

      •	 For FYs 2007 and 2008, the Committee divided all funds
         evenly throughout the eligible jurisdictions with the exception
         of the Tribal Nation, which received less funding. Risk,

     Annual Report to Congress on States’ and Urban Areas’ 

Management of Homeland Security Grant Programs Fiscal Year 2011


                            Page 7
          vulnerability, or consequence in making the equal division
          were not factors considered, even though populations varied
          significantly.

      Further, Texas’s review and approval process for State Agency
      projects cannot ensure that the most deserving projects were
      selected from the proposed State Agency projects. This occurred
      primarily because the State Agency project proposals were not
      evaluated with the same scrutiny applied to other Homeland
      Security projects proposed by local jurisdictions. Additionally,
      State Agency projects were not tracked in the State’s automated
      grants management tracking system. Accordingly, the State’s
      ability to ensure that the State Agency projects were being
      managed in accordance with federal requirements was diminished.

      Monitoring of Subgrantee Activities

      Pennsylvania’s, Nevada’s, and New Jersey’s monitoring of grant
      performance and subgrantees’ adherence to federal and state
      regulations needs to be improved.

      Pennsylvania’s procedures for monitoring subgrantees have not yet
      been fully implemented and physical inventories have not been
      performed. Officials at the State Administrative Agency and
      subgrantee organizations stated that prior to implementation in July
      2009, official written policies and procedures for conducting
      monitoring were not in place. After the procedures became
      effective, sufficient resources were not available for full
      implementation. By not conducting monitoring activities, the State
      Administrative Agency is limited in its ability to ensure that the
      grant program is operating efficiently, effectively, and in
      compliance with federal and Commonwealth regulations.
      Furthermore, the State Administrative Agency cannot ensure that
      equipment purchased with grant funds is accounted for properly.

      Nevada could enhance the effectiveness of its subgrantee
      monitoring by following its newly established site monitoring
      procedures. In January 2009, Nevada hired a Compliance Officer
      to conduct grant monitoring. Prior to January 2009, the State’s
      primary monitoring activities were desk audits conducted during
      quarterly financial status reports, periodic program reports,
      interactions with subgrantee representatives during working group
      meetings, and occasional visits or undocumented telephone calls
      with subgrantees. After January 2009, the Compliance Officer
      developed a structure, including policies and procedures, to

     Annual Report to Congress on States’ and Urban Areas’ 

Management of Homeland Security Grant Programs Fiscal Year 2011


                            Page 8
      monitor subgrantee activities. However, it was never fully
      implemented, and available resources may not be sufficient to fully
      implement it.

      New Jersey could better monitor subgrantees’ compliance
      throughout the grant performance period to ensure that subgrantees
      are administering Homeland Security Grant Program awards in
      accordance with federal laws and regulations. The State did not
      conduct periodic on-site monitoring for ongoing projects to ensure
      subgrantee compliance with federal requirements. Instead, the
      State focused its on-site monitoring activities on the grant closeout
      process. Several issues, such as improper payments or
      questionable purchases, could have been identified earlier with
      periodic on-site monitoring of subgrantee performance. For
      example, we identified $2,657,212 of improper, unauthorized, or
      undocumented use of funds and $585,519 of inefficient use that
      might have been avoided if timely monitoring had taken place.

      Oversight of Investments, Costs, and Financial Management

      Financial management and oversight of investments and costs were
      identified as areas for improvement. Oversight of major
      investments by California and Texas resulted in ineffective
      stewardship of federal grant funds, while California, New Jersey,
      and New York could improve cost oversight and financial
      management.

      Poor Investment Decisions

      In California and Texas, oversight of some major investments did
      not result in effective and efficient stewardship of federal grant
      funds. Also, California and Texas cannot demonstrate with
      sufficient precision that Homeland Security Grant Program funds
      are being effectively used because the states do not have systems
      in place to measure the benefits of grant-funded programs. This
      occurred primarily because the states’ review processes focused on
      fiscal and compliance requirements, and did not consider whether
      the subgrantee adequately planned for or documented that the
      equipment acquired for the programs provided the best value for
      the grant funds expended.

      Following are examples where lack of major investment oversight
      resulted in inefficient or ineffective program results:




     Annual Report to Congress on States’ and Urban Areas’ 

Management of Homeland Security Grant Programs Fiscal Year 2011


                            Page 9
      •	 Fusion Center Software. A California urban area spent more
         than $700,000 for a specialized software program for its Fusion
         Center to evaluate criminal incidents obtained from local law
         enforcement data files. The software did not perform as well
         as the supplier indicated it would. After about 15 months, the
         program was replaced with another software program costing
         $1,250,000.

      •	 Personal Protective Equipment. Two California urban areas
         used different strategies to acquire a new version of a
         protective suit to shield first responders against chemical,
         biological, radiological, nuclear, and explosive hazards. One
         urban area bought more than 5,400 suits at a cost of
         approximately $2 million as soon as the new design became
         available. This single purchase was enough to equip most of
         the first responders in its jurisdictions, but did not fully
         consider the limited number of first responders who required
         these suits. The second urban area purchased 400 suits at a
         cost of approximately $426,795 to outfit the region’s special
         teams of chemical, biological, radiological, nuclear, and
         explosive specialists. The costs of these two strategies are
         significantly different. Although the State approved each
         purchase, no documentation was available to support the
         different strategies.

      •	 Fusion Center Assessment. Texas had invested more than
         $10 million in the development of seven Fusion Centers, but
         had not developed systematic state-wide guidance on assessing
         the performance of the centers. Fusion Center and local
         officials said that they were left on their own and were still
         developing performance goals for assessing the centers’
         effectiveness.

      Questioned Costs

      During our asset verification and documentation review in New
      Jersey, we observed several instances of improper, unauthorized,
      or undocumented uses of grant funding totaling $2,657,212, and
      inefficient uses totaling $585,519, which went undiscovered or
      unmitigated as a result of inadequate monitoring.

      For example, a UASI subgrantee paid a U.S. General Services
      Administration contractor before goods and services were fully
      rendered. This subgrantee was reimbursed $1,500,000 for
      equipping an Emergency Operations Center; however, no

     Annual Report to Congress on States’ and Urban Areas’ 

Management of Homeland Security Grant Programs Fiscal Year 2011


                            Page 10
      equipment had been installed, and less than $150,000 worth of
      materials had actually been procured. (Note that these funds have
      been returned to FEMA.) Another UASI subgrantee awarded three
      sole-source training contracts totaling $254,444 without public
      bidding or prior written approval from the Office of Homeland
      Security and Preparedness. As of October 2010, the contractor had
      received $239,944 in grant funds.

      Elsewhere in this report, we have identified questioned costs
      relating to procurement weaknesses (New York: $4.1 million) and
      inadequate support for salary expenditures (New York: $143,437).

      Financial Management Practices

      Our audits found the following weaknesses in the states’ financial
      management practices:

          •   Internal controls over reimbursements
          •   Timely expenditures of grant funds
          •   Poor monitoring of cash advances
          •   Inadequate support for salary expenditures

      Internal controls over reimbursements. California’s State
      Administrative Agency did not require UASI grant fund recipients
      to provide copies of purchase orders, delivery receipts, and other
      documentation with their requests for reimbursement of approved
      grant fund expenditures. As a result, the State’s internal controls
      over grant expenditures did not provide assurance that
      expenditures reimbursed to UASI recipients were eligible,
      allowable, and supportable in accordance with federal
      requirements.

      A subsequent review by FEMA of California Homeland Security
      Grant payments made in FY 2008 showed that more than
      $24 million (about 19%) of expenditures were not proper. Most of
      the improper payments identified were caused by insufficient
      supporting documents. FEMA recommended that documentation
      compliance metrics be incorporated throughout the grant process to
      minimize future improper payments. Also, to help overcome lost
      and missing documents, FEMA recommended a standardized
      document retention protocol and corresponding training.

      Timely expenditure of grant funds. Texas obligated grant funds to
      subgrantees in accordance with federal requirements, but
      subgrantees did not always initiate projects in a timely manner. As

     Annual Report to Congress on States’ and Urban Areas’ 

Management of Homeland Security Grant Programs Fiscal Year 2011


                            Page 11
      a result, funds were not expended within the original 3-year
      performance period of the grants. Consequently, first responders
      were less likely to be timely equipped, trained, and prepared as
      possible. State officials said that they were considering
      establishing specific timeframes for grant recipients to initiate and
      complete certain projects; if projects were not initiated within a set
      time, the funds might be reallocated to other projects.

      New Jersey subgrantees also did not initiate projects in a timely
      manner, and as a result, SHSP grant funds were not expended
      within the grant performance period. State officials reported that
      the unobligated funds consisted of (1) state share funds awaiting
      issuance of equipment purchase orders; (2) local share encumbered
      amounts that the State’s financial system is not able to track, and
      (3) state agency planning-level salary and employee benefits,
      which technically cannot be encumbered on the state’s accounting
      system. Subgrantees offered several explanations for why grant
      funds were not spent in a timely manner, including excessive
      administrative burdens, inadequate staffing, and the practice of
      waiting until multiple invoices are paid before requesting
      reimbursement. State officials initiated actions in January 2010 to
      improve program management of Homeland Security Grant
      Program funds.

      Poor monitoring of cash advances. California did not maintain a
      system for monitoring cash advances and accrued interest for
      UASI agencies. UASI recipients held funds beyond the time
      permitted by regulation, and accrued interest was not reported or
      paid as required because California did not have a system to
      account for the advanced funds or interest due.

      Inadequate support for salary expenditures. The New York City
      Fire Department did not have a reasonable basis to support its
      claims for salary expenditures, specifically $143,437 claimed for
      salaries of personnel backfilling for other employees (participants)
      who were attending training. The amounts claimed were not based
      on payroll documents in accordance with federal requirements.
      Rather, the amounts were based on a model that computed
      estimated backfill expenditures rather than actual time charges. As
      a result, the claimed amounts were not supported by adequate
      documentation. Accordingly, we questioned the $143,437 claimed
      for personnel backfill expenses.




     Annual Report to Congress on States’ and Urban Areas’ 

Management of Homeland Security Grant Programs Fiscal Year 2011


                            Page 12
      Compliance With Procurement and Property Management
      Requirements

      The audits identified areas for most states to improve in complying
      with both procurement requirements and property management
      requirements.

      Procurement Weaknesses

      California UASI agencies did not always report or justify sole
      source procurements, or adhere to procurement requirements of
      FYs 2006, 2007, and 2008 grants. In February 2009, DHS OIG
      reported problems with sole source procurement among Homeland
      Security Grant Program purchases in California; however, these
      practices continued without remediation. Multiple large
      procurements were made without competition, and in some cases
      without the state being notified. Other sole source procurements
      were approved by the State but had insufficient documentation.
      No sole source procurement that we observed was substantiated
      with a cost analysis to show that the price obtained was fair and
      reasonable. Although California officials acknowledged this
      problem and have made some effort to correct it, we found little
      progress since the condition was previously reported.

      Our February 2009 audit report of California State Homeland
      Security Program grants also reported that California subgrantee
      managers and county procurement authorities were not familiar
      with and did not always comply with federal requirements when
      procuring equipment using Homeland Security Grant Program
      funds. Multiple sole source procurements were noted that were
      unreported, did not receive State approval, and did not include a
      written cost analysis documenting that the price obtained was fair
      and reasonable. For example, the following UASI subgrantee sole
      source procurements did not comply with federal regulations:

          •   Consulting services – $563,775
          •   Public safety radios – $527,343
          •   Information technology – $515,284
          •   Intelligence analysis software – $700,000
          •   Communication system and radios – $3,928,473
          •   License plate reader – $6,226,826

      The New York City Police Department awarded contracts without
      the use of full and open competition, and did not comply with
      federal requirements in procuring equipment. The New York City

     Annual Report to Congress on States’ and Urban Areas’ 

Management of Homeland Security Grant Programs Fiscal Year 2011


                            Page 13
      Police Department used a confidential and special expense
      purchase process that involved negotiating directly with vendors
      for purchasing equipment and other items. Using this process, the
      New York City Police Department purchased 145 items costing
      more than $10,000 each without advertising and without the
      receipt of sealed bids required by New York State law and the
      subagreement provisions. Because of this noncompliance, we
      questioned $4.1 million of equipment purchased through the
      confidential and special expense process.

      Property Management

      New Jersey, New York, Tennessee, and Texas did not always
      maintain inventory records in accordance with federal
      requirements. Pennsylvania did not monitor subgrantees to ensure
      that they perform biannual physical inventories. As a result, the
      states did not have reasonable assurance that the assets procured
      with federal funds were adequately safeguarded to prevent loss,
      damage, or theft.

      For example, subgrantees in New Jersey did not always maintain
      inventory records in accordance with federal requirements or
      comply with property record requirements. Inventory records at
      the local subgrantees (10 counties, 2 cities) we visited either did
      not exist or did not contain all required information, such as
      property cost, description, identification number, location, use, and
      condition. Furthermore, only 1 of the 12 subgrantees could
      demonstrate that it conducted a physical inventory every 2 years.

      New York State subgrantees did not always maintain inventory
      records in accordance with federal requirements. Three of the 22
      subgrantees visited were not in compliance with property record
      requirements. Inventory records at these three subgrantees did not
      contain required information such as equipment serial number,
      location, or evidence that physical inventory had been conducted
      every 2 years. In addition, 18 of 27 subgrantees visited by the
      State Fiscal Monitoring Unit did not follow property record
      requirements.

      Tennessee was not enforcing the requirement under its grantee­
      subgrantee contracts to perform physical inventories of assets.
      Although subgrantees were maintaining appropriate property
      records, not all were conducting physical inventories that would
      provide visual assurances concerning the location, use, and
      condition of property. Officials from the three non-compliant

     Annual Report to Congress on States’ and Urban Areas’ 

Management of Homeland Security Grant Programs Fiscal Year 2011


                            Page 14
             subgrantees said that, once the equipment was purchased and
             passed down to subrecipients, they believed that they no longer
             had responsibility for the equipment. After discussing the
             observation with State officials, all subgrantees were notified to
             comply with the inventory requirements in the Tennessee grantee­
             subgrantee contract.

             In Texas, 8 of the 10 subgrantees visited were not in compliance
             with property record requirements. Inventory records at the eight
             subgrantees did not contain all of the required information.
             Individually, the control log for each of the eight noncompliant
             subgrantees was missing between 1 and 10 of the 12 data fields,
             with an average of 6 missing data fields. Without the required
             property management records, subgrantees cannot maintain,
             safeguard, control, or adequately account for assets procured with
             federal funds.

             Pennsylvania did not monitor subgrantees to ensure that they
             perform biannual physical inventories as required by federal
             regulations. Only one of the four regional task forces we visited
             had performed a physical inventory, and that inventory was not
             complete. At two of the four task forces, we identified federal
             grant-funded equipment that was not labeled as required by grant
             guidance.

Innovative Practices
     During these performance audits, five potentially innovative systems were
     identified for possible use by other states and jurisdictions. We believe
     that FEMA should consider evaluating their potential benefits to help
     improve grant management and preparedness.

             Two California Urban Areas Security Initiatives Are Using
             Innovative Systems That May Be Best Practices

             The San Diego and Los Angeles-Long Beach urban areas were
             using innovative systems to better invest and manage UASI grant
             funds.

             •	 San Diego’s Technology Clearinghouse helps subrecipients
                make more informed purchasing decisions. The Clearinghouse
                initiative is designed to evaluate new technologies and provide
                local jurisdictions with detailed, independent assessments of
                equipment and systems being considered by first responders.


            Annual Report to Congress on States’ and Urban Areas’ 

       Management of Homeland Security Grant Programs Fiscal Year 2011


                                   Page 15
          The evaluations feature both technical assessments and testing
          under realistic conditions by first responders.

      •	 The Invoice Tracking System developed by Los Angeles-Long
         Beach provides an on-line tool for managing subrecipient
         programs. The system allows the program teams to digitally
         record and store all essential program documentation, which is
         then available for use by UASI managers and the urban area’s
         accounting department. The system allows users to determine
         program status in real time, view essential documents, review
         expenditures, and determine the status of reimbursement
         requests without any need for paper documents, specialized
         software, or storage.

      New Jersey’s Grant Tracking System

      New Jersey employs an electronic database, the Grant Tracking
      System, to capture and track each subgrantee’s state-approved
      Homeland Security Grant Program-funded projects. The Grant
      Tracking System is the State’s primary oversight mechanism to
      track the progress of each county, city, and state agency toward
      completing or procuring budgeted projects or equipment. The
      system captures subgrantee spending plans and approvals, award
      letters, purchase orders, and invoices to facilitate documentation
      review and approval.

      State officials indicated that they would provide the Grant
      Tracking System source code at no cost to any organization
      interested in using the system to assist in administration of federal
      Homeland Security Grant Program funds.

      Two Texas Subgrantees Developed Systems That May Be Best
      Practices

      We identified two practices in Texas that should be considered for
      potential use by other jurisdictions and states:

      •	 The City of Houston developed an emergency medical service
         patient tracking system to avoid serious problems that had been
         experienced during major evacuations from hurricanes. The
         system tracks patients from the time they arrive in Houston
         from an evacuated location (e.g., New Orleans) or from the
         scene of an incident to a health care facility, through discharge
         from the facility, and to reunion with family or friends.


     Annual Report to Congress on States’ and Urban Areas’ 

Management of Homeland Security Grant Programs Fiscal Year 2011


                            Page 16
      •	 The Texas State Health and Human Services Department used
         Homeland Security grant funding for a system called the 2-1-1
         Information and Referral and Transportation Assistance
         Registry (Registry). The Registry is for people with
         disabilities, medical conditions, or other problems that would
         impede their ability to respond to a mandatory evacuation order
         because they do not drive or have family and friends to help.
         All persons in Texas who may need assistance evacuating their
         homes during a disaster are entered in the Registry. The
         Registry gives local emergency planners a better idea of the
         numbers of individuals who may need assistance and the type
         of assistance they may need during emergencies.




     Annual Report to Congress on States’ and Urban Areas’ 

Management of Homeland Security Grant Programs Fiscal Year 2011


                            Page 17
Appendix A
Purpose, Scope, and Methodology

                    The purpose of this report, prepared in accordance with Public
                    Law 110-53, Implementing Recommendations of the 9/11
                    Commission Act of 2007, was to assess and summarize the audit
                    reports completed during FY 2011 on State Homeland Security
                    Program grants and Urban Areas Security Initiative grants awarded
                    to states, territories, and the District of Columbia. Specifically, we
                    were to determine (1) the number of audits conducted and
                    completed; (2) whether findings are applicable to the mandate;
                    (3) whether the funds awarded were used in accordance with the
                    law, program guidance, and state homeland security plans and
                    other applicable plans; and (4) the extent to which funds awarded
                    enhanced the ability of a grantee to prevent, prepare for, protect
                    against, and respond to natural disasters, acts of terrorism and other
                    man-made disasters.

                    The audit reports included in this annual consolidated report to
                    Congress were the result of seven audits conducted by the Office
                    of Inspector General and by independent public accounting firms
                    under contract to the Office of Inspector General. Appendix B
                    provides citations and Internet links to each report.

                    The audits summarized in this report were conducted in
                    accordance with the Government Auditing Standards as prescribed
                    by the Comptroller General of the United States. No additional
                    audit work was performed in preparing this report.




                   Annual Report to Congress on States’ and Urban Areas’ 

              Management of Homeland Security Grant Programs Fiscal Year 2011


                                          Page 18
Appendix B
Audit Reports Included in this Report


                                            Report          Date
Report                                                               Internet Link
                                            Number         Issued
The State of Tennessee’s Management of
State Homeland Security Program and
                                                                     http://www.oig.dhs.gov/assets/
Urban Areas Security Initiative Grants     OIG-11-29      01/13/11
                                                                     Mgmt/OIG_11-29_Jan11.pdf
Awarded During Fiscal Years 2006
through 2008
The State of New York’s Management of
State Homeland Security Program and
                                                                     http://www.oig.dhs.gov/assets/
Urban Areas Security Initiative Grants     OIG-11-30      01/13/11
                                                                     Mgmt/OIG_11-30_Jan11.pdf
Awarded During Fiscal Years 2006
through 2008
The State of Texas’s Management of
State Homeland Security Program and
                                                                     http://www.oig.dhs.gov/assets/
Urban Areas Security Initiative Grants     OIG-11-44      02/11/11
                                                                     Mgmt/OIG_11-44_Feb11.pdf
Awarded During Fiscal Years 2006
through 2008

The State of California’s Management of
Urban Areas Security Initiative Grants                               http://www.oig.dhs.gov/assets/
                                           OIG-11-46      02/23/11
Awarded During Fiscal Years 2006                                     Mgmt/OIG_11-46_Feb11.pdf
through 2008

The State of Nevada’s Management of
State Homeland Security Program and
                                                                     http://www.oig.dhs.gov/assets/
Urban Areas Security Initiative Grants     OIG-11-83      05/10/11
                                                                     Mgmt/OIG_11-83_May11.pdf
Awarded During Fiscal Years 2006
through 2008
The Commonwealth of Pennsylvania’s
Management of State Homeland Security
                                                                     http://www.oig.dhs.gov/assets/
Program and Urban Areas Security          OIG-11-109      09/09/11
                                                                     Mgmt/OIG_11-109_Sep11.pdf
Initiative Grants Awarded During
Fiscal Years 2007 through 2009
The State of New Jersey’s Management
of State Homeland Security Program and
                                                                     http://www.oig.dhs.gov/assets/
Urban Areas Security Initiative Grants    OIG-11-112      09/26/11
                                                                     Mgmt/OIG_11-112_Sep11.pdf
Awarded During Fiscal Years 2007
through 2009




                        Annual Report to Congress on States’ and Urban Areas’ 

                   Management of Homeland Security Grant Programs Fiscal Year 2011


                                               Page 19

Appendix C
Scope of State Grant Program Management Audits

                    The purpose of each state audit was to determine whether the state
                    distributed and spent State Homeland Security Program and Urban
                    Areas Security Initiative grant funds (1) effectively and efficiently
                    and (2) in compliance with applicable federal laws and regulations
                    and DHS guidelines. We were to also address the extent to which
                    grant funds enhanced the state’s ability to prevent, prepare for,
                    protect against, and respond to natural disasters, acts of terrorism,
                    and other man-made disasters.

                    The scope of the audits included the plans developed by the states
                    and urban areas to improve preparedness and all-hazards response,
                    the goals set within those plans, the measurement of progress
                    toward the goals, and the assessments of performance
                    improvement that result from this activity. Further, the scope
                    included an assessment of these activities within the context of risk
                    to determine whether the states’ plans produced strategic
                    performance improvements related to the areas of highest risk,
                    rather than merely producing improvements in a broader sense.

                    The entire Homeland Security Grant Program and its interrelated
                    grant programs fund a range of preparedness activities, including
                    planning, organization, equipment purchase, training, exercises,
                    and management and administration costs. Because of the
                    interrelationship of these grant programs, all were considered when
                    evaluating the planning cycle and the effectiveness of the overall
                    grant program. However, only State Homeland Security Program
                    and, where applicable, Urban Areas Security Initiative funding,
                    equipment, and supported programs were reviewed for compliance.

                    The scope of the audits included the State Homeland Security
                    Program and Urban Areas Security Initiative grants, where
                    applicable, for either FYs 2006 through 2008, or FYs 2007 through
                    2009. Appendix B lists specific years for individual states.




                   Annual Report to Congress on States’ and Urban Areas’ 

              Management of Homeland Security Grant Programs Fiscal Year 2011


                                          Page 20
Appendix D
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Federal Emergency Management Agency

                      Administrator
                      Assistant Administrator, Grant Programs Directorate
                      Federal Emergency Management Agency Audit Liaison
                      Grant Programs Directorate Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                    Annual Report to Congress on States’ and Urban Areas’
               Management of Homeland Security Grant Programs Fiscal Year 2011


                                           Page 21

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
